3

No.

IN THE UNITED STATES SUPREME COURT
SCOTT DWAYNE CHATMAN,
Petitioner,
vs.,

STATE OF IOWA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF IOWA

APPENDIX

Scott D. Chatman, Pro Se Petitioner
2000 North 16th Street
Clarinda, IA. 51632

JUDGMENT
FILED MAY 1,2019
E-FILED 2019 MAY 01 9:34 AM FOLK - CLERK OF DISTRICT COURT

In the Iowa District Co urt .
In and tor Pout County
Criminal No. FECR298293

STATE OF IOWA,
Plaintiff,
v.
SCOTT DWAYNE CHATMAN,
Defendant

SENTENCING ORDER

Now On May 1,2019. the State is represented by Michael Salvner. Defendant appears in person and with counsel, Julia
Ofenbakh. on the charge(s) of:

Case Num ber

Count

FECR298293

I
II
III

In violation of Iowa Code
seelionfs):

Crime
BURGLARY IN THE FIRST DEGREE
(A Class S Forcible Felony)
ROBBERY IN THE FIRST DEGREE
(A Class 8 Forcible Felony)
ASSAULT CAUSING BODILY INJURY
______ (A Serious Misdemeanor)______

713.1 & 713.3
711.I& 711.2
708. !(2Ka)& 708.2(2)

Q Defendant also appears with an Interpreter. Not Applicable.
THE COURT DENIES THE DEFENDANTS MOTION FOR A NEW TRIAL AND PROCEEDS WITH
SENTENCING AT THIS TIME
MATTERS RELATED TO SENTENCING
0 POST-psi SENTENCING. Defendant previously pled guilty to the charges) set out. above. The court has received
and studied (he pre-sentence report and afforded counsel an opportunity to examine the report.
El ALLOCUTION. Defendant was given an opportunity to speak in mitigation of the sentence. On inquiry made, no
legal cause has been shown why sentence should not be pronounced.
B DEFENDANT IS ADJUDGED GUILTY of the charges), in violation of the Code sections set out above and is
sentenced as follows, pursuant to Iowa Code sections 9029 and 902.3:
Defendant shall be
imprisoned for a period not
Crime
Case Number Count
to exceed:
BURGLARY IN THE FIRST DEGREE
TWENTY-FIVE (2S) YEARS
I
FECR298293
TWENTY-FIVE (2S) YEARS
ROBBERY IN THE FIRST DEGREE
ONE (1) YEAR
ASSAULT CAUSING BODILY INJURY
Defendant shall receive credit against the(sc) sentenced) for any days saved in custody on thefee) individual offense(s)
since arrest.

n
m

1 of5

fCAOWCtHXOOIP

-69-

k

\\

<z.n

A"

y

E-F1LED 2019 MAY 01 9:34 AM POLK - CLERK OF DISTRICT COURT

0 COUNT .TWO - MINIMUM" SENTENCE. A minimum sentence of SEVENTEEN 071 YEARS & SIX 161
.. MONTIES is imposed in FECR298293-COU.NT TWO pursuant to Imva Code sectimrfst: . . :. Vi
7
a
O 902.7 (5 yr. forcible felony + weapon);
O 9028 (3 yr. habitual offender);,
0 902U (T’2 maximum sentence if prior forcible felony); *
'0 902I2 (70%’of ihaximum bn certain felonies);
• b

0 CONSECUTIVE SENTENCES, teat to idWA C«e §§ 90I.'5(9)(c) and OOLSTthe set,fences) of incarceration
shall run:
’
'
'
0 COUNTS ONE, TWO & THREE shall run CONSECUTIVE to each other for a total period of incarceration not
,V to exceed FIFTY-ONE ISO YEARS.
*i
•y r
• j;
0 Hie sentences are consecutive based upon:
0 the separate and serious nature of the offenses: ,
0 PROBATION IS DENIED.. Defendant is committed to the custody of the Director of. the Iowa Department of
Corrections for a determination of the appropriate place of confinement, all as provided by Iowa Code sections 901.7
and 902.5. Defendant shall be delivered by the sheriff to the designated reception center which is: (I) the Iowa Medical
Classification Center in Oakdale. Iowa for adult maids; (2) the Iowa Correctional Institution for Women for any
females; and (3) the Anamosa State Penitentiary in Anamosa, Iowa if Defendant is a male under the age of 18. The
sheriff shall transport Defendant to the State institution accompanied by a person of the same sex. Pending Defendant's
transfer to the custody of fee Director of the Iowa Department of Collections (DOC) at flic reception center, Defendant
. shall remain in the custody of fee sheriff. Defendant's tana of incarceration may be reduced from the maximum
sentence because of statutory earned time; work credits and program credite; Defendant may be eligible for parole
before the sentence is discharged subject to statutory restrictions or sentence reductions. Probation is denied based on
fee sentencing considerations set out herein.
i /.
I"'
i’

0 SENTENCING CONSIDERATIONS. Hie Court determines that fee.setitence set forth herein will provide maximum
opportunity for rehabilitation of defendant and protection of the community from further offenses.' Pursuant to Iowa
' Code section 9<57.5, fed Courtbas considered fee following factors:
..
0 Defendant’s age; _ ,
■
0 Defendant's prior record of convictions and deferments ofjudgment, if any;
O Defendant's employment circumstances; •
0 Defendant’s family circumstances;
0 Etefendant’s mental health and substance abuse history and tnatment options available in fee community and
the correctional system:
- 0 the nature of fee offense committed; ■ r
’’ 0 fee plea agreement;.. '
..i.
* i'
0 statutory sentencing requirements:
' ' 0 other feetes as follows: the PSI renoit & rec»iminehdatioh.‘ ’' '
•

•/

/i-

0 FINE, Defendant sbatt. pay a ISIS fine, on COUNT TtfiSEE,- pjtis 35% surcharge which, is due immediately (MO
FJNES as to COUNTS ONE & TWO because they.^e Class, B Tfeiomes.j Amounts due are delinquent 30 days afterdhe
stated due date. 0 If checked, this fine is suspended due to Defendant's incarceration.

2 of5

-70-

E-FILEO 2019.MAY 01 9:34 AM POLK - CLERK OF DISTRICT COURT

13 RESTITUTl ON,; Defendant is ordered to make restitution in the amount of STBD. Payments) shall he made to the
Clerk of Criminal Court, Polk' County Criminal Courts Building, 11,0 Sixth AvctouesPeslMoines, IA 50309. The Clerk
shall forward payments) to TBD. If the amounts of restitution are not. available at the .time, of sentencing, a
supplemental order will follow.
t,

E VGRP. Defendant is ordered to participate in and cooperate with a VORP session to allow the victim to inform
Defendant of the consequences of tire crime, to determine the amount, of restitution owed, and to establish a.paymenl
schedule. If restitution cannot be resolved in the VORP session, (he County Attorney is ordered to file a statement of
. damages and Defendant shall have 30 days from the date of tire filing to contest the amount of damages, claimed.
Defendant shall call 286-3057 within three (3) working days io’make arrangements for this VORP session. (Session
required only if victim wishes to participate).
'

•.

:

,

■

,

0 DEFENDANT SHALL SUBMIT A DNA SAMPLE to DCS pursuant. toTowa'Code Chapter 81. Failure to comply
may constitute contempt, pursuant to Iowa Code section 81.4(3). .
•m* *i

S

i-

B LAW ENFORCEMENT INITIATIVE SURCHARGE Pursuant to Iowa Code section 911,3, the defendant is
assessed s law enforcement initiative surcharge ($125) for each above-listed Elation of Iowa Code Chapter 1.24* 155A*
' , 453B,Ti3,714.715A, or 716. or section 719.7,719.8,725.1,•'725.2or 725.3. (COUNTS ONB& Tm>) / ' '
?•

:

ALL PARAGRAPHS BELOW APPLY
.

i

t
i

,

i

.

.

r:

DISMISSAL OF OTHER COUNTS AND CASES. Upon the State's recommendation, titofol lowing countiffcases are
dismissed:WA. 7
• '
• ' '•
■ *
' "

:

i *

Pursuant to the plea agreement Defendant is ordered to: 1) pay restitution if restitution is due on "any of the dismissed
countsfeases; and 2) pay oourt costs on any-dismissed eounts/cases:
• "
’>
1

K-.

Pursuant Iowa Code section 901C.1 allows a defendant to fde a motion to-request'that a dismissed case- be expunged
(erased) from the clerk of court’s public records. Before the expungement, Defendant must prove all ofthe following:
1) d// charges in th'c case were dismissed;' ' •
’ ' 2) at least i80 days have bossed since the ptts'c Was disnris^e3j(or Defendant provw, and tire court finds, good
cause to expunge the records sooner such'as when Defendant'was lire victim of an identity theft);.,
3) the dismissal was not based on a finding that Defendant was incompetent to stand trial or was not guilty by
)• v
reason of insanity; and •
4) all court costs, fees, or oilier financial obligations ordered by the court hove bccn-paid.- ,.
If the request is not resisted by the state, the motion may be granted without .hearing, if.Defendant motion includes two
attachments: A) an affidavit swearing to foe four matters set out above: and B) proof from the clerk of court tiiatali costs,
foes and'other financial obligations have beeh patd^■■■'< •
'' '
■

:»•

Pursuant to Iowa Code section 815.9(5), if Defendant is receiving court-appointed, legal assistance, the court finds upon
inquiry, review of the ease file and any other information provided by tire parties, Defendant has the reasonable ability to
pay restitution offees and costs in the amount approved by fee State Public Defender or %XERO. whichever is less.
Vic •

• '

*

't

*

Defendant has a tight to appeal this judgment to the Iowa Supreme Court To perfect on appeal, Defendant must file a written Notice of
Appeal with the Clerk of Court no later than 30 days front'thedate of thbfOrder.: If Defendant foils to file the Notice of Appeal,
Defendant waives and gives up hisfher right to appeal thip judgment A copy of Defendant’s Notice of Appeal roust be delivered to the
Iowa Attorney Geftemt with proof of service. If Defendant'cannot^ afford an attorney or the'edst Of m appeal 4fid qualifies fir court
appointed-counsel, on ’attorney and'necessary documents Will’be fumislwd at State expense,' 1
•
. h

5 (err.

NO BOND on appeal pursuant to Iowa Code section 811.1(1).

3 of 5, .

I'CAOVflMWM19

-71-

i

E-FiLED 2010 MAY 019:34 AM POLK - CtERK OF DIStRfCT COURT
>' •
Court costs a« taxed to Defendant, He docs not have a reasonable ability to ropy due to his lengthy incarceration.
* 'Hie Defendant was personally served with a copy of this order,
* h addition to all other poisons entitled to a copy offing order, the cisk shall provide a copy to the Mowing:
Felony Criminal Case Coordinator,
!■■■

• w

u

.i.

-72-

E-FILED 2019 MAY 01 9:34 AM POLK- CLERK OF DISTRICT COURT

;• •

Case Number
FECR298293
Type:

State of Iowa Courts
Case Title
STATE VS SCOTT DWAYNE CHATMAN
ORDER FOR JUDGMENT
So Ordered

n
Jeffrey Farrel, District Court Judge,
Fifth JudkSa! District of Iowa
Electronically signed on 2019-05-01 09:34:16

-73-

V

1

ORDER RE: POST-TRIAL MOTION
FILED MAY 2, 2019
E-FILED 2019 MAY 0211:24 AM POLK - CLERK OF DISTRICT COURT

IN THE IOWA DISTRICT COURT FOR POLK COUNTY
State of Iowa,
Case No. FECR298293
Plaintiff,
v.

RULING ON DEFENDANT’S MOTION
FOR NEW TRIAL

Scott Dwayne Chatman,
Defendant.

STATEMENT OF THE CASE
■

The State of Iowa charged defendant Scott Chatman with burglary in the first degree,

robbery in the first degree, and assault causing bodily injury. The me was tried to a jury
beginning on March 4,2019. On March 7,2019. the jury returned a guilty verdict on all charges.
On April 16, 2019, defendant filed a motion for new trial vrith a supporting brief. The
motion and brief raised several grounds: 1) prosecutorial misconduct regarding burden shifting,
2) violation of the motion in lim ine order by introducing evidence and argument from the alleged
victim,- who is now deceased and did not testify aUrial, 3) insufficient evidence of a theft to
support counts I and .II, 4) due. process issues surrounding a competency issue, 'lire motion was
set for hearing on May 1,2019, prior to sentencing. Hie court entered a ruling on the record and
provides this written order as a supplement.
CONCLUSIONS OF LAW
The court can grant a new' trial in a criminal case for any grounds listed in Iowa R. Crim.
P. 2.24(2)(b), including the following:
(5) When the court has misdirected the jury in a material matter of lawyer has
erred in the decision of any question of law during the course of the trial, or when
tire prosecuting attorney has been guilty of prejudicial misconduct during the trial
thereof before a jury.

-74-

IN THE COURT OF APPEALS 6f IOWA
No. 19-0856
Filed November 30, 2020

STATE OF IOWA,
Plaintiff-Appellee,
4
D
4
4

3

§U

v.

vs.
SCOTT DWAYNE CHATMAN,
Defendant-Appellant.

a
4

i

4
q
J

Appeal from the Iowa District. Court, for Polk County, Robert B. Hanson
(competency),

William

P.

(

(trial/sentencing), Judges, .

Kelly

(competency),

and

Jeffrey

D.

Farrell

■;

D
s|

D

A defendant appeals his convictions for first-degree robbery, first-degree

n

>

27J

burglary, and assault causing bodily injury.

CONVICTIONS AFFIRMED;

SENTENCE VACATED AND REMANDED FOR RESENTENCING.
i „

3

q
4H

Martha J. Lucey, State Appellate Defender, and Bradley M. Bender,
•if ,

4
4
JH

Assistant Appellate Defender, for appellant.
Thomas J. Miller, Attorney General, and Louis S. Sloven, Assistant Attorney

H

2
<

General, for appellee.

H

J
4
4
4

Considered by Vaitheswaran, P.J., and Tabor and Schumacher, JJ.

|X

"6"

1 of 18

2
TABOR, Judge.
A jury convicted -Scott Chatman of burglary in the first degree, robbery in
the first degree, and assault causing bodily'injury.

He now appeals those

convictions, raising four issues: (1) incompetency; (2) ineffective assistance of
counsel; (3) insufficient proof that he committed the crimes; and (4) sentencing
error. In a pro se brief,1 Chatman advances three more arguments: (5) insufficient
evidence that he- used a dangerous weapon while committing the crimes; (6) his
alleged absence during' the competency hearings; and (7) admission of “grisly
misleading photos of the deceased victim to inflame the passion of the jury.”
-On the first and sixth issues, We find no due process'violation in the district
court’s determination that Chatman was competent to stand trial under Iowa Code
chapter 812 (2018). On the second and seventh1 issues, we preserve his claims
of ineffective assistance of counsel for possible postconviction relief proceedings.
On the third and fifth issues, viewing the evidence in the light most favorable to the
jury’s verdicts, we affirm his convictions. 'And on the fourth issue, we remand for
resentencing.

1

Last year, the Iowa General Assembly enacted Senate File 589, an omnibus
crime bill that foreclosed our ability to consider pro se filings when a defendant has
an attorney. See 2019 Iowa Acts ch. 140 § 30 (codified at Iowa Cpde § 814,6A(1)).
Because Chatman has appellate counsel, the State argues we cannot consider his
pro se briefing. In state v. Macke, our supreme court determined other provisions
of the same omnibus bill did hot apply to appeals pending on July 1, 2019. 933
N.W.2d 226, 228 (Iowa 2019); see also State v. Gordon, 943 N.W.2d 1, 5 (Iowa
2020) (reiterating amendments did not apply retrospectively to appeals from
judgments entered before statute’s effective date). Since then, we have
consistently rejected the State’s argument on pro se filings. See State v.
Undaman, No. 19-1088, 2020 WL 5229188, at *1 n.1 (Iowa Ct. App. Sept. 2, 2020)
(collecting cases). Because the district court entered judgment on May 1, 2019,
we may consider Chatman’s pro se supplemental briefs.

2 of 18

3
I.

Facts and Prior Proceedings

Felix Mandujano had a good neighbor in Brian Everspn. Everson Ijved with
his girlfriend Breanna George in the same Des Moines apartment complex as
Mandujano. After Mandujano received a-cancer diagnosis in 2015, Everson and
George took him to chemotherapy appointments and ran other errands for him.
Everson described the toll the disease took.on his friend: “I watched him go from
about: 140 pounds to 106 pounds in a matter of weeks,

.. He.could hardly move

at ail. He shuffled his, feet when he .walked. It was hard for him to stand. He got
dizzy really easy.”2
......

During his friendship with Mandujano-, Everson,met Chatman. In late, spring,

2016, Everson stopped by Mandujano’s-apartment when Chatman was visiting.
They interacted “long enough to have a beer.” After that first encounter, Everson
noticed Chatman coming and going fr;ora:IManduja,np’s;apartment four or five other
times. On those occasions, he recalled Chatman driving a green minivan. From
conversations with .Mandujano^ Everson grew worried about Chatmans visits to
his ailing friend’s apartment.
One evening in July 2016, Everson and George were walking their basset
hounds when they saw Chatman drive, toward Man

building in his minivan.

Expecting trouble, Everson handed'the dog’s leash to George and took off running.
By the time he reached the parked van, Everson saw Chatman “donkey kick” the
door of Mandujano’s apartment and force his way inside.

2 Mandujano died in the summer of 2018.
3 of 18

4
When Everson reached the doorway, he could hear .Chatman’s demand:
“Give me the money.” Everson saw Chatman reaching out to threaten Mandujano.
When he drew closer, Everson could see Chatman held a knife.1 Everson armed
himself with a stick and crossed the threshold, only to have Chatman turn and
charge at him. Everson- back pedaled, falling off the stoop and into Mandujano's
rose garden. Chatman commandeered the stick and started striking Everson. By
this time, George, with the dogs in tow, had caught up with her boyfriend. She
yelled for Chatman to stop hitting him.

In reaction, Chatman stopped beating

Everson and returned to, the apartment—again demanding money from
Mandujano. During this interlude, Everson reached through the open window of
Chatman’s parked van to grab -the keys from the ignition.: Seeing this move,
Chatman rushed toward Everson with the knife. Everson ran to another neighbor’s
house, where he called 911. From Chatman’s attack, Everson endured a broken
finger, two broken toes, and gashes on his:shins. '.Mandujano also.suffered cuts
to his right hand and left bicep and elbow:
.The State charged Chatman with first-degree burglary, first-degree robbery.
and assault causing. bodily injury, in a March *2018 trial information.. The district
court scheduled a jury trial for .September. But before the parties completed jury
selection, the court suspended proceedings and ordered a competency evaluation.
After the evaluation, the courtfound Chatman incompetent to stand trial and. sent
him to the Iowa Medical and Classification Center (IMCC) for treatment. ; A few
months 'later, the court found the IMCC: had restored Chatman’s competence.
Chatman stood trial in March 2019. A jury convicted him as charged. He now
appeals.

4 of 18

5
II.

Scope and Standards of Review

The issues raised on appeal require, varying standards of review.

We

review the district court’s decision on Chatman's competency de novo. See State
v. Johnson, 784 N.W:2d 192, 194 (Iowa 2010). Likewise, we review his claims of
ineffective assistance of counsel de novo. See State v. Shorter, 945 N.W.2d 1,6
(Iowa 2020). But we review his challenge toThe: sufficiency of the evidence for the
correction of legal error. ■ See.State v. Schiebout, 944 N.W.2d 666, 670 (Iowa
2020). Viewing the record in the light most favorable to the State, we will uphold
the verdicts if substantial evidence supports them., Id. :> We also review his
sentence for correction of legal error and will not reverse unless Chatman can
show an abuse of discretion or defect in the sentencing procedure. See State v.
Formaro, 638 N.W.2d 720, 724 (Iowa 2002).
III.

Analysis

A.

Competency to Stand Trial

V'-; ;

Chatman lodges three complaints about the district court’s handling of the
competency issue. First, he contends the court erred by concluding his time at the
iMCC restored his competency to stand trial and by not monitoring the proceedings
to ensure that Chatman remained competent. 'Second, he argues the district court
missed a statutory deadline for holding a competency restoration hearing. Third;
in his pro se filing, Chatman asserts he was not present; at the unreported
competency hearings in October 2018 and January 2019. And he claims his
absence from those hearings violated due process.

We will address each

allegation in turn.

5 of 18

6
1.

Restoration of Competency Standard

We start with the fundamentals. Criminal defendants cannot stand trial if
they are “suffering from a mental disorder which prevents [them] from appreciating
the charge, understanding the proceedings, or assisting effectively in the defense.”
Iowa Code § 812.3(1); State v. Lyman, 776 N.W.2d 865, 874 (Iowa 2010),
overruled on other grounds by Alcala v. Marriott Int’l, Inc., 880 N.W.2d 699, 708
n.3 (Iowa 2016).

Subjecting an incompetent defendant to trial violates due

process. Cooper v. Oklahoma, 517 U.S. 348, 354 (1996). But we presume a
defendant is competent to stand trial and place the burden on the defendant to
prove otherwise by a preponderance of the evidence. Lyman, 776 N.W.2d at 874.
Chatman’s counsel met that burden when the court first set the case for
trial. On the second day of jury selection in September 2018, counsel told the
court:
My concern, Your Honor, in this case is that there are times when
Mr. Chatman and I are able to communicate and we’re able to talk
about matters, but there are other times when he is -completely
uncooperative, to say the least, with me, not listening to anything that
I say and alleging things that are simply not trueFollowing its dialogue with Chatman, the court ordered a competency evaluation.
After evaluating him, psychologist Michael Huston reported Chatman
received treatment for bipolar disorder, post-traumatic stress disorder (PTSD), and
anxiety. Despite receiving treatment, Chatman continued to display “significant
symptoms of paranoid thought and emotional reactivity,” according to Dr. Huston.
Dr. Huston found “mild impairment” of Chatman’s ability to appreciate the charges
against him' and “minimal impairment” of his ability to understand the legal
proceedings. But on the ability to assist effectively in his defense, Dr. Huston found
6 of 18

7
Chatman showed “substantial impairment.” To illustrate that third finding, Dr.
Huston reported Chatman’s belief that his defense attorney was working with the
prosecutor and judge without regard for justice. He recommended transferring
Chatman to the IMCC for restoration-of his competency to stand trial. The court
accepted that recommendation and suspended proceedings.

See Iowa Code

§.812.6(2)(a).
Then, on November 30,. 2018, psychiatrist Arnold Andersen notified the
court that Chatman was “now competent to' stand trial, after completion of
restoration at IMCC.” Dr. Andersen believed Chatman was “able to assist counsel,
despite some reservations about adequacy of counsel.”

On that point, Dr.:i

Andersen noted that Chatman was still willing to .cooperate/‘by asking questions
of counsel, listening to him, giving feedback, and taking in general ‘a hands-on’
approach.” Chatman was also able to identify the charges against him, appreciate
the nature of proceedings, and “give a reasonable estimate of a range of
punishments,” according to Dr. Andersen.

The court’s acceptance qf that

competency finding is the issue before us. See Iowa Code § 812.8(1).
r In reviewing the restoration decision, we begin with the presumptions and
burdens under section 812.8,. When the,psychiatrist*informed the court that
Chatman was “mentally restored” the presumption of competency returned. See
State v. Snethen, 245 N.W.2d 308i 311 (Iowa 1976), On appeal, both parties cite
Snethen for the proposition that Chatman had the burden to prove he was not
competent at the time of the restoration hearing. But our supreme court recently
suggested, without analysis, that it was the State’s burden to prove by a
preponderance of the evidence that, a defendant’s “competency had been
7 of 18

8
restored” under section 812.8(5). See State v. Vea/, 930 N.W.2d 319, 338 (Iowa
2019) (“in sum, the State carried its burden of proving by a preponderance of
evidence that Veal’s competency had been restored.”). Regardless of which party
had the burden of proof, we find the district court properly determined on
January 14, 2019, that Chatman was competent to stand trial based on
Dr. Andersen’s comprehensive psychiatric evaluation.

In finding Chatman

competent to stand trial, the court permissibly relied on the psychiatrist’s
mental-status examination and personal observations of Chatman.

See' id.

(highlighting fact that examining psychiatrist found Veal could work with his
counsel).
Yet Chatman insists he remained incompetent—as revealed by his
“irrational, delusional, and paranoid behaviors” at hearings on January 25 and
February 21. He contends the Court failed in its duty to “monitor the proceedings
and ensure the defendant’s due process and statutory rights related to competency
are properly protected throughout the proceedings.” See State v. Einfeldt, 914
N.W.2d 773, 783 (Iowa 2018). Chatman is correct that the court had a Continuing
duty to ensure his right to due process.

See Iowa Code § 812.3(1 ).3 As an

offshoot, we must measure Chatman’s competency from the whole record on
appeal. See State v. Pedersen, 309 N.W.2d 490,496 (Iowa 1981) (“In considering
the totality of the circumstances in our de novo review, we turn to the two main

3 That provision requires a competency hearing “at any stage of a criminal
proceeding” “when the district court finds probable cause that there exist ‘specific
facts showing that the defendant is suffering from a mental disorder which prevents
the defendant from appreciating the charge, understanding the proceedings, or
assisting effectively in the defense.’” Iowa Code § 812.3(1); Einfeldt, 914 N.W.2d
at 779.
8 of 18

9
parts of the record bearing on defendant’s competency to stand trial: the views of
the two psychiatrists, and defendant’s utterances and .conduct before, during, qnd
after trial.”). “[0]ur task is to examine the information before the trial court to
determine if at the relevant time an unresolved question of the defendant’s
competency reasonably appeared.” State v. Kempf, 282 N.W.2d 704, 707 (Iowa
1979).
.

Granted, all we have is the cold record. But.still, our reading of Chatman’s

behavior at.those hearings does not show an inability to assist in his defense.4
True, at both hearings, Chatman complained that he was.unable to communicate
with defense counsel. At the January 25 hearing, Chatman received permission
from the court to read a letter he wrote describing his frustrations with his case.
The letter offered a clear, detailed, linear explanation of why he wanted new
counsel. Chatman was upset that his attorney urged,him, to take a plea offer,
Chatman also told the court that “this inpompetency. thing” was “a ploy” and his
PTSD from serving in the Marine .Corps had “nothing to do with [him], being
incompetent or competent.” At the, hearing’s end, the court agreed to appoint new
counsel.
Admittedly, the February 21 hearing portrays a more volatile defendant.. His
newly appointed attorney described a “recent outburst” by Chatman-as “pretty
illustrative” of their conversations. Then defense counsel asked to withdraw. The

4The State recognizes that under Einfeldt, “Chatman’s references to subsequent
events could help support an argument that the trial court should have found
‘circumstances suggesting a change,’- requiring it to suspend proceedings again
and order another competency evaluation,” 914 N.W.2d at 783 (quoting Dppe v.
Missouri, 420 U.S. 162, 181 (1975)). But the State contends even that line of
argument should not convince us to reverse the restoration decision.
9 of 18

Is;#

10
prosecutor weighed in: “[T]his is a reoccurring problem with this specific defendant,
period. We’ve tried the 812 route.[5]

I knew he wasn’t an 812.

He’s just a

disagreeable" man. It doesn’t make him incompetent.” When the court called on
Chatman, he again complained that his attorney recommended he take a plea
deal.

Beyond the deal, Chatman expressed dismay that defense counsel

predicted: “[Wje’re going to convict your ass.” Chatman asked the court: ‘Who
talks to their clients like that?”

Defense counsel acknowledged making" the

statement but told the court he was trying to impress upon Chatman that the State
had strong evidence, and Chatman “tend[ed] to take things out of context.” The
court again appointed new counsel.6 ! All in all, Chatman’s dissatisfaction with his first two attorneys did not signal
his incompetence to stand trial.7 An ability to assist effectively in one’s defense
does not require passively accepting appointed counsel’s proposed strategy. See
State v. Edwards, 507 N.W.2d 393, 396 (Iowa 1993) (finding defendant competent
though he was disruptive during trial 'and “left no doubt that he was going to take

5 Iowa Code chapter 812 governs criminal defendants’ competency to stand trial.
9 On the first day of his March 2019. jury trial, his third attorney made a record that
she presented Chatman with the plea offer from the State! Chatman confirmed
that he understood the offer and rejected it.
7 Chatman also points to his unruly conduct at sentencing that caused the judge
to order his removal from the courtroom. We find Chatman’s angry performance
at the sentencing hearing does not counter the psychiatric assessment relied'on
by. the court in determining Chatman’s competency was restored. See State v.
Stanley, 344 N.W.2d 564, 571 (Iowa 1983) (“The trial court was able, at the . .
sentencing proceedings, to view the defendant to aid in a determination regarding
[his] competency. The record reveals no behavior on the part of Stanley which
would in any way negate the psychological evaluations which were considered by
the court.”); see also State v. Campbell, No. 16-0550, 2017 WL 2464070, at *2
(Iowa Ct. App. June 7, 2017) (explaining a defendant’s “odd, disruptive, and
sometimes irrational behaviors” do not “equate with incompetency to stand trial”).
10 of 18

11
an active role in his defense and in no uncertain terms explained why”). Suppose
Chatman had waived the right to counsel and opted to represent himself. While
often ill-advised, that choice is constitutionally protected and do,es .not. show
incompetence to stand trial. See generally Faretta v. California, 422 U.S. 806, 834
(1975) (“To force a lawyer on a defendant can only lead him to believe that the law
contrives against him.”). Contrary to Chatman’s position on appeal, nothing in the
record compels us to reverse the district court’s January 2019-ruling that he was
competent to stand trial. On our-de novo review, the record does not raise a
substantial question of his competency after that ruling.
2.
:•

Timeliness of Restoration Hearing

Chatman also contends the district court, violated the deadline set in Iowa

*

Code section 812.8(4). That provision requires the court to schedule a hearing
within fourteen days of receiving notice from a psychiatrist that, “the defendant has
acquired the ability to appreciate the charge, understand the proceedings,: and
effectively assist in. the defendant’s' defense.”

Iowa Code § 812.8(1), (4).

Dr. Andersen notified the court of his evaluation on November 30, 2018. The court
held a hearing on January 14, 2019—forty-five days later.
the State argues Chatman did riot preserve error on this procedural
" '

"

'<

•

: •:

;

’

challenge. In reply, Chatman recognizes issues must ordinarily be raised and
decided by the district court before an appellate court can review them. See Meier
V. Senecaut, 641 N.W.2d 532, 537 (ldwa' 2002). But Chatman notes appellate
review is possible if the- failure to raise this issue resulted from the denial of
effective assistance of counsel. We will address this ineffective-assistance claim
with Chatman’s other complaints about trial counsel’s performance. 11 of 18

' A

*:\4

12
3.

Chatman’s Pro Se Competency Issue

In his pro se supplemental brief, Chatman claims the court violated his due
process rights because “he was not present at any of his competency hearings.”
He asserts: “We jiist don’t know what happened in the court room that day.”
But because neither the October 12, 2018 hearing nor the January 14,2019
hearing was reported, it is hard to verify the factual premise underlying Chatman’s
claims. -Plus^ the court orders following those hearings cast doubt on hisallegations. The October 15 order finding defendant incompetent opens with this;
sentence: “On 10/12/18 the Defendant appeared in person and with counsel,
attorney Tomas Rodriguez, before this Court for a hearing on the issue whether
the defendant is competent to stand trial pursuant to Iowa Code Sections 812.4
and 812.5.” Less clear, the January 14 order finding Chatman competent states:
“On 01/14/2019 the Defendant appeared in [stet] by counsel Tomas Rodriguez
before this Court for a hearing on the issue whether the defendant is competent to
stand trial pursuant to Iowa Code Sections 812.4 and 812.5.” But we glean another
clue from the January 25 hearing, when the judge uttered these introductory words:,
“On January 14th of 2019 was the first time that I met Mr. Chatman, where we had
an order reversing commitment or incompetency;” The court’s statement suggests
Chatman was present for the competency.restoration hearing.

'

r In its appellee’s brief, the State appears to accept that Chatman was absent
from the two unreported competency hearings. But the State also argues that* as
appellant, Chatman had the duty under Iowa Rule of Appellate Procedure 6.806 to
recreate the record of the proceedings for which a transcript was unavailable. We
agree. Chatman has no right to relief on appeal because he.did not try to prepare
12 of 18

13
a statement as required by rule 6.806., See In re T.V., 563 N.W.2d 612, 614 (Iowa
1997).
B.

Ineffective Assistance of Counsel

Chatman contends his trial counsel made four critical omissions:
(1) counsel did not present expert testimony or request a jury instruction on eye
witness identification; (2) counsel did not object to alleged prosecutorial
misconduct during closing arguments; (3) counsel did not preserve, error on the
court’s failure to foiiow the timeline in Iowa Code section 812.8(4), and (4) counsel
did not object to photographs of the victim “intended to inflame the passion of the
jury.”8 ‘ Chatman also raises cumulative error. To succeed on these contentions,
Chatman must prove two elements by a preponderance of the evidence: (1) trial

*

'I

counsel.failed to perform an essential; duty, and;(2).this failure led to prejudice.
See Stete v. Webster, 865 N.W.2d 223, 231 (Iowa;2015) <
While

we

have - statutory;

authority;

to

;£-

decide

Chatman’s

ineffective-assistance-of-counsel,claims.because bis appeal preceded the July 1,
20.19 effective date of Senate File,589 (amending Iowa Code section 814.7), the
prudent course is to preserve them for possible postcpnviction-relief proceedings.
See State v. Trane, 934 N.W.2d .447, 465 (Iowa 2019). At those proceedings,
Chatman’s trial counsel will have a chance to explain the defense strategy. See
id.] State v. Coil, 264 N.W.2d 293, 296 (Iowa 1978) (“[A] lawyer is entitled to [her]
day in court, especially when [her] professional reputation is impugned.’’).

8

Although Chatman did not preserve error on this pro se issue, the State
acknowledges Chatman “could style this as an ineffective assistance claim.”
13 of 18

14
Likewise, the postconviction court can consider any cumulative effect of prejudice
arising from all-the claims. ' See State v. Clay, 824 N.W.2d 488, 501 (Iowa 2012).
C.

Substantial Evidence

Chatman frames this case as a whodunit and contends the State failed to
prove he was the culprit. In his pro se supplemental brief, he adds the argument
that the State failed to prove he possessed a dangerous weapon, an element of
first-degree robber^- and first-degree burglary.

But trial counsel moved for

judgment of acquittal only to contest identity. Because the motion did not preserve
the ground now'raised by Chatman pro se, we cannot consider it for the first time
on appeal. See State v. Crone, 545 N.W.2d 267, 270 (Iowa 1996). In his pro se
supplemental reply brief, Chatman contends counsel was ineffective in failing “to
object to the lack of the use of a dangerous weapon.” Chatman faces another
procedural roadblock; Iowa appellate courts “have long held that an issue cannot
be asserted for the first time in a reply brief.” Young v. Gregg, 480 N.W.2d 75, 78
(Iowa 1992). Thus, we turn to the only preserved Substantial-evidence challenge:
Whether the State proved Chatman was the assailant.
We consider evidence to be “substantial” if it can convince a rational jury
that the defendant was guilty beyond a reasonable doubt. State v. Chapman, 944
N.W.2d 864; 871 (Iowa 2020). We view the evidence in the light most favorable
to the State.

Id.

Evidence is not substantial if it only creates “speculation

suspicion, or conjecture.” Id. “Identity is an element of a criminal offense whichthe State must prove beyond a reasonable doubt.” State v. Jensen, 216 N.W.2d
369, 374 (Iowa 1974).

14 of 18

15
In his challenge to the State’s proof, Chatman attacks the identifications by
witnesses Everson and George. Chatman points to inconsistencies in how ,they
described the suspect to investigators.

He also highlights their hesitancy to

confirm that his photograph, provided by,police, depicted the same person they
saw in Mandujano’s apartment. At trial, Chatman offered family members as alibi
witnesses to show he was not in Des Moines on the day of the crimes.
But Chatman’s argument cannot carry the day. Both Everson and George
identified Chatman in open court as the person they saw demanding money and
threatening Mandujano with a knife. The weight of these in-court identifications
“was for the jury.” See State v. Dqolin, 942 N.W.2d 500, 510-11 (Iowa 2020)
(explaining jurors are “not so susceptible that they cannot measure intelligently the
weight of identification testimony that has some questionable feature”). And their
identifications did not stand alone. .The State offered evidence connecting
Chatman to. the minivan at the scene. The jury was free to credit that testimony,
as well as the identifications by Everson and George, and reject his alibi testimony.
See State v. Shorter, 893 N.W.2d .65, 74 (Iowa 2017).

Finding substantial

evidence, we decline-to disturb the verdicts.
D.

Sentencing

Finally, Chatman contests his sentence.

The district court imposed

consecutive, indeterminate terms of twenty-five years on the two felonies and one
year on the misdemeanor assault—a term not to exceed fifty-one years in prison.
The court also imposed a mandatory-minimum term of seventeen and one-half
years on the robbery conviction. Because of that mandatory minimum, the court
planned to run the felony sentences concurrently. But after hearing Chatman’s
15 of 18

•#

16
hostile and profanity-laced allocution, the court opted to impose consecutive terms.
The court reasoned: “I need to consider your rehabilitation and the protection of
the public. And considering the allocution that you just made, it appears to me
highly unlikely that you’ll ever be rehabilitated, because nothing is your fault.”
Chatman first challenges the seventy-percent mandatory minimum.
Chatman acknowledges'that mandate complied with the law at the time of
sentencing. But Chatman flags new legislation that gives the sentencing court
discretion to impose a mandatory minimum between one-half and seven-tenths of
the maximum term. See Iowa Code § 902.12(3) (2019).9 Chatman also claims
the court failed to state on the record its reason for imposing the sentence,
particularly its reason for imposing cdnsecutive terms.

See Iowa R. Crim. P.

2.23(3)(d); State v. Hill, '878 N.W.2d 269, 274 (Iowa 2016). Chatman argues the
reason the court did give for imposing'consecutive terms—tied to Chatman’s
outbursts during the sentencing hearing—-was improper. :
In response, the State agrees the new provision oh mandatory-minimum
terms requires a remand for resentencing on the robbery conviction. See State v.
Smith-Berry, No. 19-0839, 2020 WL 2988410, at *4 (Iowa Ct. App. June 3, 2020);
State v. Brown, No. 18-1988, 2020 WL 1879686, at *6-7 (Iowa Ct. App. Apr. 15,
2020); State v. Fagan, No. 19-0492, 2020 WL 1310319, at *1-3 (Iowa Ct. App.

9 Section 902.12(3) now provides:
A person serving a sentence for a conviction for robbery in the first
degree in violation of section 711.2 for a conviction that occurs on or
after July 1, 2018, shall be denied parole or work release until the
person has served between one-half and seven-tenths of the
maximum term of the person’s sentence as determined under
section 901.11, subsection 2A.
16 of 18

*
f.

t,

.

\
\
\

17Mar. 18, 2020). But the State contends the rest of.the sentence was proper and
should not be revisited on remand. In defense of the consecutive.sentences, the
State asserts the sentencing court was “not reacting to any particular breach of
decorum ..or even .-to the personal attacks.”

Instead, the court focused on

Chatman’s lack of remorse, a permissible sentencing factor.

See State v.

Harrison, 914 N.W,2d 178, 204 (Iowa 2018); State v. Knight, .701 N.W,2d 83, 88
(Iowa 2005) (“A defendant’s lack of remorse can be.discerned ‘by any admissible
statement made by the. defendant pre-trial, at trial, or post-trial,’ or by ‘other
competent evidence properly admitted at the sentencing hearing.’” (quoting State,
v, Shreves, 60 P.3d 991, 996 (Mont. 2002)).

/i*'*

We agree with the State that.the-sentencing court-offered proper, reasons
for imposing consecutive terms,, Yet we,do. npt find it necessary to constrain the
resentencing court to the sairie irationale,,., Qn rpmand,,the court may reconsider
all discretionary aspects for sentencing,based on -the,fhree offenses for which
Chatman was.convicted. See,State v. Jacobs-,.64,4 N.W.2d 695,697 (Iowa 2001).
CONVICTIONS AFFIRMED; SENTENCE VACATED AND REMANDED
•

FOR' RESENTENCING.

‘J

' '■

-

-

--

..................

.»••••

.

.

.

;

m i'i’
v .
■ •

I

’ ?t

t

i

.*«< . .
i

:*
:
• • c.

17 of 18

a>ox.y

/> v

E-FILED 2019 MAY 01 9:34 AM POLK-CLERK OF DISTRICT COURT
[■

Case Number
FECR298293
Type:

State of Iowa Courts
Case Title
STATE VS SCOTT DWAYNE CHATMAN
ORDER FOR JUDGMENT
So Ordered

•Jeffrey Farrell, District Court Judge,
Fifth' Judidal District of Iowa
Electronically signed on 2019-05-01 09:34:16

i

-73-v
J .

4

